Audit Report No. D-2011-020             November 29, 2010




     DOD Controls Over Information Placed on Publicly
      Accessible Web Sites Require Better Execution
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFIS                          American Forces Information Service
DEPSECDEF                     Deputy Secretary of Defense
FOUO                          For Official Use Only
IOSS                          Interagency Operations Security Support
JWRAC                         Joint Web Risk Assessment Cell
OPSEC                         Operations Security
PII                           Personally Identifiable Information
                                     INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704



                                                                              November 29,2010

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                 AND INFORMATION INTEGRATION/DOD CHIEF
                 INFORMATION OFFICER
               ASSISTANT SECRETARY OF DEFENSE FOR PUBLIC AFFAIRS
              ASSISTANT SECRETARY OF THE AIR FORCE FOR
                 FINANCIAL MANAGEMENT AND COMPTROLLER

SUBJECT: DOD Controls Over Information Placed on Publicly Accessible Web Sites Require
         Better Execution (Report No. D-2011-020)

We are providing this report for your review and comment. We considered management
comments on a draft of this report when preparing the final report. When sensitive information
on DOD publicly accessible Web sites is retrieved by adversaries, it places DOD personnel and
missions at risk. We evaluated management of 436 public Web sites for their compliance with
mandatory content and approval procedures and training requirements. We determined that
DOD Web site administrators are not properly managing their Web sites.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. Comments from
the Assistant Secretary of Defense for Networks and Information Integration/DOD Chief
Information Officer, the Assistant Secretary of Defense for Public Affairs, Air Force Director
Network Services Office of Information Dominance and Chief Information Officer, and the Vice
Director Defense Information Systems Agency were generally responsive. As a result of
management comments and suggestions on the draft report, we revised Recommendation A,2 to
better align with the impending Instruction. We request that the Assistant Secretary of Defense
for Networks and Information Integration/DOD ChiefInformation Officer provide additional
comments on the final repOlt by December 22,2010. See Recommendations Table on page ii of
this report.

If possible, send a .pdf file containing management comments to audros@dodig.mil. Copies of
management comments must have the actual signature of the authorizing official. We are unable
to accept the ISigned/ symbol in place of the actual signature. If you arrange to send classified
comments electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).


                                           (j}u:."~~:Je'"jJjvf,A?5'
                                               lf   Ii   •"  .   /V


                                            Alice F. Carey
                                            Assistant Inspector General
                                            Readiness, Operations, and SUppOlt
   Report No. D-2011-020 (Project No. D2009-D000LB-0147.000)                     November 29, 2010


                  Results in Brief: DOD Controls Over
                  Information Placed on Publicly Accessible
                  Web Sites Require Better Execution
What We Did                                                 What We Recommend
We performed the audit in response to a September 25,       Among other recommendations, we recommend the
2008, request by the then Deputy Secretary of Defense       Assistant Secretary of Defense for Public Affairs
for the DOD OIG to address concerns that sensitive          [ASD (PA)] within 120 days develop and maintain a
information continues to be found on DOD public Web         DOD inventory of all publicly accessible Web sites.
sites. We evaluated the management of 436 public            We recommend the Assistant Secretary of Defense
Web sites for their compliance with mandatory content       for Networks and Information Integration/DOD
and approval procedures and training requirements. We       Chief Information Officer [ASD (NII)/DOD CIO]
also reviewed 3,211 DOD-identified Web sites for            within 120 days:
public accessibility.
                                                            • Require heads of DOD Components to certify
What We Found                                                   annually that a documented Web review and
DOD did not execute enforcement actions for                     approval process has been developed and
noncompliance with Web site policies and                        implemented.
procedures, and Components did not fully                    • Require all Web administrators to receive the
disseminate required policies and procedures                    proper Web operations security training.
governing publicly accessible Web sites. As a result,       • Require Military Services to maintain an
sensitive information continues to be posted to DOD             integrated registration system within the DOD’s
public Web sites, putting DOD missions and                      central registration system.
personnel at risk. We found:
• 43 of 73 DOD organizations failed to respond to
                                                            Management Comments and Our
    the Deputy Secretary of Defense requirement to          Response
    certify their Web sites.                                Comments from the ASD (NII)/DOD CIO, ASD
• Web site administrators for 207 out of 436 public         (PA), Air Force Director Networks Services Office,
    Web sites of DOD Components failed to                   and Vice Director, Defense Information Systems
    implement proper content review and approval            Agency (DISA) generally agreed with and responded
    procedures.                                             to our recommendations. However, the ASD
• 452 of 470 DOD Web site administrators                    (NII)/DOD CIO’s comment was only partially
    reviewed did not receive the required Web               responsive to Recommendation A.2. We partially
    operations security training.                           agreed with the ASD (NII)/DOD CIO and revised
                                                            Recommendation A.2 to better align with the
DOD is not maintaining a Department-wide                    impending Instruction. We request that the ASD
inventory of all its public Web sites as required by        (NII)/DOD CIO provide additional comments on
law. DOD stopped funding and discontinued its               Recommendation A.2. We request management
central Web site inventory system in 2006. A total
                                                            provide comments by December 22, 2010. Please
of 791 Web sites identified by DOD in their
                                                            see the recommendations table on the back of this
inventories as publicly accessible were actually
                                                            page.
password-protected or nonexistent. Furthermore,
individual organizations are not maintaining accurate
inventories of Web sites and cannot ensure that all
information posted on public Web sites has received
proper review.
                                                        i
Report No. D-2011-020 (Project No. D2009-D000LB-0147.000)             November 29, 2010


Recommendations Table

Management                       Recommendations               No Additional Comments
                                 Requiring Comment             Required
Assistant Secretary of Defense   A.2.a, A.2.b, A.2.c, A.2.d,   A.1, A.3, B.2.a, B.2.b,
for Networks and Information     A.2.e ,                       B.2.c, B.2.d
Integration/DOD Chief
Information Officer

Assistant Secretary of Defense                                 B.1
for Public Affairs

Secretary of the Air Force                                     A.5
Director, Joint Web Risk                                       A.4
Assessment Cell

Please provide comments by December 22, 2010.




                                          ii
Table of Contents
Results in Brief                                                                   i

Introduction                                                                       1
       Objectives                                                                  1
       Background                                                                  1
       Review of Internal Controls                                                 2
Finding A. Weaknesses in DOD’s Web Site Review and Approval Process                3
       DOD Organizations’ Certification of Publicly Accessible Web Sites Needs
          Improvement                                                              4
       Inconsistent Web Site Content Review and Approval Process                   5
       Web Site Administrators Lack Web Operations Security Training               8
       Availability of Operations Security Training Courses                       10
       Management Oversight                                                       10
       Web Risk Assessment Cell Continues to Find Sensitive Information on DOD
          Publicly Accessible Web Sites                                           10
       Management Comments on the Finding and Our Response                        11
       Recommendations, Management Comments, and Our Response                     12
Finding B. DOD Lacks a Complete Inventory for Publicly Accessible Web Sites       15
       DOD Did Not Maintain a Central Web Site Inventory of All Publicly
          Accessible Web Sites                                                    16
       Inventories of DOD Organizations’ Public Web Sites                         16
       Management Actions                                                         19
       Recommendations, Management Comments, and Our Response                     20
Appendices
       A. Scope and Methodology                                                   23
       B. Public Web Site Certification Compliance                                26
       C. Interagency Operations Security Support Staff FY 2010 Training
             Schedule for Courses OPSE-1500 and OPSE-3500                         32
       D. Management Comments on the Finding and Our Response                     33
       E. Criteria for DOD Web Site Inventory                                     36
       F. Deputy Secretary of Defense Memorandum for Office of the
              Inspector General                                                   38
Management Comments
       Assistant Secretary of Defense for Networks and Information Integration/
          DOD Chief Information Officer                                           39
       Assistant Secretary of Defense for Public Affairs                          43
       Secretary of the Air Force                                                 45
       Defense Information Systems Agency (Joint Web Risk Assessment Cell)        47
Introduction
Objectives
In a September 25, 2008, memorandum to the DOD Office of the Inspector General, the
then Deputy Secretary of Defense (DEPSECDEF), outlined his concerns that, “sensitive
information frequently can still be found on publicly accessible Web sites.” To address
these concerns, the then DEPSECDEF requested the Inspector General to include this
matter when executing his oversight responsibility.

As a result, the DOD Office of the Inspector General announced an audit of controls over
information contained on DOD publicly accessible Web sites. The overall objective was
to determine whether DOD Components are in compliance with Web site security policy.
Specifically, we determined whether DOD Components have controls and processes in
place to ensure review and approval of all information posted to publicly accessible Web
sites before posting. We also determined whether personnel responsible for review of
information for Web posting have received Web operations security (OPSEC) training.
See Appendix A for a discussion of the scope and methodology and prior audit coverage.

Background
DOD publicly accessible Web sites are unrestricted by password or public key
infrastructure user authorization and can be accessed directly from the Internet by
members of the public. Due to extensive use of Web archiving tools, once information is
posted to publicly accessible Web sites, it is captured and distributed throughout the
World Wide Web. Preventing the disclosure of sensitive information requires proper
review of that information prior to posting.

On January 14, 2003, the then Secretary of Defense issued a memorandum to DOD
Components concerning discrepancies in Web site OPSEC. The memorandum directed
heads of DOD Components to ensure Web site owners take responsibility for all content
posted to their organizations’ Web sites. It directed Web site owners to redouble their
efforts to ensure that only the information necessary to accomplish their missions be
posted to publicly accessible Web sites. This is especially critical in light of the Al
Qaeda training manual recovered in Afghanistan that, when translated, states, “Using
public sources openly and without resorting to illegal means, it is possible to gather at
least 80 percent of information about the enemy.”

Joint Web Risk Assessment Cell
The Joint Web Risk Assessment Cell (JWRAC), a DEPSECDEF-chartered cell within the
Defense Information Systems Agency, is responsible for conducting OPSEC assessments
and trend analyses of content and data on DOD publicly accessible Web sites. JWRAC
reviews Web sites for compliance with existing DOD Web policy and directs remediation
actions to bring Web sites into compliance. The JWRAC performs analyses of the data to
determine any existing OPSEC risks that may pose an immediate or potential threat to



                                            1
warfighters. According to officials, JWRAC conducts analyses of organization Web sites
on an annual schedule and by request from DOD organizations.

Review of Internal Controls
We determined that internal control weaknesses existed in DOD as defined by DOD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. DOD Components lacked processes for ensuring:

    •   administrators of DOD public Web sites implement proper content review
        procedures;
    •   administrators of public Web Site 1 receive the required Web OPSEC training; and
    •   an accurate inventory of DOD publicly accessible Web sites as required by public
        law, the Office of Management and Budget, and DOD policy.

Therefore, DOD does not have reasonable assurance that all DOD Components are
implementing controls for the review and approval of content prior to posting to DOD
publicly accessible Web sites. Also, DOD did not ensure Components were preventing
the posting of sensitive and/or Personally Identifiable Information (PII) on DOD publicly
accessible Web sites.

We also determined that some Army activities failed to include the management of Army
publicly accessible Web sites as a part of their internal control reviews. We further
determined that internal control guidance in the Navy, Air Force, and Marine Corps did
not mandate review of each Service’s public Web sites. Implementing the
recommendations in this report will correct DOD organizations’ failure to properly
review and approve information placed on publicly accessible Web sites and correct the
site registration deficiencies for DOD Services, agencies, and combatant commands. We
will provide a copy of the report to the senior officials responsible for internal controls at
the Army, Navy, Air Force, Marine Corps, and DOD agencies and other offices listed in
Appendix A.




1
 DOD Web site administrators include: OPSEC managers, Web Managers, webmasters, public affairs
specialists, and anyone who reviews information prior to posting on publicly accessible Web sites.


                                                  2
Finding A. Weaknesses in DOD’s Web Site
Review and Approval Process
Many DOD organizations did not comply with DOD Web Site policy and procedures for
publicly accessible Web site content review and approval. Specifically:
   • Of 73 DOD organizations identified, 43 (59 percent) did not certify, as required,
       that they have mandatory content review and approval procedures in place for
       information posted to publicly accessible Web sites.
   • Of 436 publicly accessible Web sites reviewed, 207 (47 percent) did not have
       documented review and approval procedures, or existing procedures did not fully
       comply with requirements.
   • Of 470 Web site administrators reviewed, 452 (96 percent) had not received
       required OPSEC training.

This occurred because DOD organizations did not execute enforcement actions for
noncompliance with Web site policies and procedures, and Components did not fully
disseminate required policies and procedures governing publicly accessible Web sites.
As a result, DOD cannot ensure that all information posted to DOD publicly accessible
Web sites has been properly reviewed and approved. In fact, over the past 3 years,
DOD’s JWRAC has identified For Official Use Only (FOUO) information, PII, and
limited-distribution information posted on DOD publicly accessible Web sites. Improper
postings increase the risk of potentially harmful disclosure of information related to DOD
personnel and missions.

Criteria for Web Site Administration
DOD’s “Web Site Administration Policies and Procedures,” November 25, 1998, updated
January 11, 2002 (Web site administrative guidance), prescribes the process for content
review and approval of information to be placed on DOD publicly accessible Web sites.
This guidance requires heads of DOD Components and other organizations to establish a
content review and approval process for all information prior to posting on publicly
accessible Web sites.

DEPSECDEF Memorandum, “DOD Web Site Security Policy Compliance,”
September 25, 2008, states that DOD organizations must ensure information placed on
DOD publicly accessible Web sites is compliant with the DOD Web site administrative
guidance. Additionally, personnel trained in Web OPSEC must review information
placed on DOD publicly accessible Web sites for security concerns. The DEPSECDEF
Memorandum also requires DOD organizations to either certify an established process
for content review and approval or submit a plan of actions and milestones for
implementing a content review and approval process, and to certify that individuals
involved in the process have received Web OPSEC training. On August 6, 2006, the
Vice Chairman of the Joint Chiefs and the DEPSECDEF issued a joint message,
“Information Security/Web Sites Alert,” that required all command OPSEC managers,




                                            3
                              webmasters, and public affairs specialists who review information for Web posting to
                              receive Web OPSEC training.

                              The Under Secretary of Defense for Intelligence is responsible for overseeing the DOD
                              OPSEC program. OPSEC reviews are central to identifying and safeguarding critical
                              information. Therefore, critical information available on publicly accessible Web sites is
                              an OPSEC concern. Duties of OPSEC managers are consistent with Web site
                              administrator responsibilities, which include identifying and protecting unclassified
                              information that may individually or in the aggregate lead to compromise of classified
                              information and sensitive activities.

                              DOD Organizations’ Certification of Publicly Accessible
                              Web Sites Needs Improvement
                              The September 25, 2008, DEPSECDEF Memorandum required DOD organizations to
                              certify the implementation of public Web sites content review and approval procedures or
                              provide a plan of actions and milestones. We identified 73 DOD organizations that
                              operate DOD publicly accessible Web sites. Of the 73 organizations, 41 failed to certify
                              or submit a plan of actions and milestones as required by the DEPSECDEF
                              Memorandum. Of the 32 organizations that submitted a response, 10 submitted on or
                              before the revised January 20, 2009, due date, and 22 submitted after. Nine of 22 DOD
                              organizations submitted Web site certifications or provided a plan of actions and
                              milestones after being contacted by the audit team. See Figure 1 below 2 and
                              Appendix B.

                                                     Figure 1. Public Web Site Certification Compliance
                                  45
                                                                                                                       41
Number of DOD Organizations




                                  40


                                  35


                                  30


                                  25                                                    22
                                  20


                                  15
                                                     10
                                  10


                                   5


                                   0
                                        Submitted by Due Date 1-20-2009   Submitted After Due Date 1-20-2009   Agency Did Not Certify




                              2
                                  Figure 1 and Appendix B include organizations submitted prior to August 30, 2010.


                                                                                          4
Eleven of the 32 DOD organizations submitted responses that did not contain all the
required information. Some heads of DOD Components failed to certify review and
approval procedures and training for their subordinate organizations; other heads of DOD
Components failed to specify to which subordinate organizations (agencies and
organizations) the certification pertained. The remaining 21 organizations submitted
responses that included all the required information for review and approval, training, and
plan of actions and milestones when necessary.

Personnel from the Office of the Assistant Secretary of Defense Networks and
Information Integration/DOD Chief Information Officer stated their intention is to revise
the DOD Web site administrative guidance and reissue it as a DOD instruction to clarify
and provide more detailed procedures for Web site review and approval. On
November 9, 2009, they provided a draft copy of the revision to the audit team. The draft
contains necessary Internet-based controls that should assist with preventing
dissemination of inappropriate information over DOD Web-based applications.

Inconsistent Web Site Content Review and Approval
Process
DOD organizations that administer publicly accessible Web sites were not adequately
implementing content review and approval procedures before posting information.
                                              Specifically, 207 of 436 publicly accessible
  These policies require organizations to     Web sites reviewed were noncompliant
  maintain consistent processes ensuring      with the DOD Web site administrative
       the review and approval of all         guidance and the DEPSECDEF
       information posted to publicly         Memorandum sent to all DOD
            accessible Web sites.             Components. (See Figure 2.) These
                                              policies require organizations to maintain
consistent processes ensuring the review and approval of all information posted to
publicly accessible Web sites. Although several organizations established local policies
incorporating DOD Web site administrative guidance and the DEPSECDEF
Memorandum, they did not effectively enforce compliance with the policies.




                                            5
                                                     Figure 2. DOD Organizations' Compliance With Content
                                                                  Review and Approval Policy
Number of Publicly Accessible Web Sites


                                          200
                                                                                            Noncompliant with Content Review and
                                          180
                                                                                            Approval Process
                                          160

                                          140                                               Compliant with Content Review and Approval
                                                                                            Process
                                          120

                                          100
                                                      185
                                           80

                                           60

                                           40   84
                                           20                   40                                                       32    41
                                                                     2           37   1              14   0
                                            0

                                                 Army            Navy        Marine Corps            Air Force          Other DOD
                                                                                                                       Organizations
                                                                                                                          Visited


                                  Below are the specific findings regarding management of publicly accessible Web sites
                                  for Military Services and other DOD organizations.

                                  Army Site Visit Results
                                  We interviewed 148 Army Web administrators responsible for managing 269 Army
                                  public Web sites and determined that Army Medical Command public Web site managers
                                  complied with DOD Web site administrative guidance for the 185 public Web sites they
                                  managed. Conversely, Web site managers for 84 other Army public Web sites were
                                  noncompliant. Specifically, managers for 50 of the 84 Web sites lacked documented
                                  review and approval procedures. Managers for the remaining 34 Web sites had content
                                  review and approval procedures, but the procedures were inconsistent with the DOD
                                  policy and failed to fully address:
                                      • review of sensitive information to include data labeled FOUO;
                                      • review of information in the aggregate; and
                                      • review of PII for members of deployable units.

                                  Army Regulation 25-1, “Army Knowledge Management and Information Technology,”
                                  December 4, 2008, requires public affairs officers and other appropriate designees to
                                  review and approve Web content before posting to the Internet for the general public and
                                  ensure content meets requirements set forth in DOD Web site administrative guidance.
                                  Although we found no PII on any of the Army public Web sites we reviewed, Army Web
                                  administrators responsible for 84 Web sites did not comply with DOD and Army policies
                                  and procedures for managing their Web sites.

                                  Navy and Marine Corps Site Visit Results
                                  Secretary of the Navy Instruction 5720.47B, “Department of the Navy Policy for Content
                                  of Publicly Accessible World Wide Web Sites,” December 28, 2005, requires Navy and
                                  Marine Corps activities to maintain publicly accessible Web sites that (1) implement and
                                  administer a comprehensive Web site management program; (2) develop local procedures


                                                                             6
for the approval of information posted on publicly accessible Web sites; and (3) ensure
posted information meets requirements set forth in DOD Web site administrative
guidance.

Navy
We interviewed 75 Navy Web site managers responsible for managing 42 public Web
sites and determined content review and approval processes for 40 public Web sites were
noncompliant with DOD Web site administrative guidance. The 40 public Web sites we
reviewed had content review and approval procedures, but the procedures did not fully
address requirements for reviewing:
     sensitive information, to include data labeled FOUO as required by DOD policy;
     information in the aggregate; and
     PII such as family member information, date and place of birth, and duty location.

We found PII on seven Navy public Web sites. For example, one Web site contained
individuals’ dates and places of birth, spouses’ names, residences, and dependents’
names. After we notified the managers of the noncompliance, they removed the PII from
the seven public Web sites we identified.

Marine Corps
We interviewed 17 Marine Corps Web site managers responsible for managing 38 public
Web sites. The content review and approval process for Web site managers of 37 public
Web sites did not comply with DOD Web site administrative guidance. Thirty-seven
public Web sites we reviewed provided content review and approval procedures, but the
procedures did not fully address requirements for reviewing:
    sensitive information, to include data labeled FOUO as required by DOD policy;
    information in the aggregate; and
    PII.

We found PII on 12 Marine Corps public Web sites. For example, the Web sites
contained individuals’ dates and places of birth, spouses’ names, residences, dependents’
names, and other PII. After we notified the Marine Corps public Web site managers of
the noncompliance, they removed PII from 11 of the 12 public Web sites. The Web
manager for the remaining Web site continues to evaluate the occurrence of PII on that
Web site.

Air Force Site Visit Results
All 14 Air Force public Web sites we reviewed were managed and operated under the Air
Force Public Information Management System. Air Force public Web site managers
must sign a memorandum of understanding to access the Air Force Public Information
Management System and register their public Web sites with the Air Force Public Affairs
Agency. Only 1 of the 14 public Air Force Web sites we reviewed had established local
plans, policies, and procedures for management of their Web sites as required by the
memorandum of understanding. The operating instructions for the Web site with




                                            7
documented content management procedures were outdated and failed to fully address
DOD Policy requirements for reviewing:
   • sensitive information, to include data labeled FOUO as required by DOD policy;
   • information in the aggregate; and
   • PII.
Although we found no PII on any of the 14 Air Force public Web sites, content managers
for the 13 public Web sites without documented local procedures provided inconsistent
approaches to Web site content management. Web site managers stated that the same
individual could create, review, and approve content for public release, but some
managers separated the duties. Separation of duties is a fundamental principle of various
regulatory mandates, such as Sarbanes-Oxley and the Gramn-Leach-Biliey Act.

Air Force Instruction 33-129, “Web Management and Internet Use,” February 3, 2005,
defines the roles and responsibilities of personnel maintaining Air Force public Web
sites. It designates the Secretary of the Air Force Office of Public Affairs to develop a
review process for posting information on publicly accessible Web sites. Further, Air
Force Instruction 35-101, “Public Affairs Policies and Procedures,” November 29, 2005,
mandates a security and policy review to ensure the material proposed for public release
through Web sites is accurate, contains no classified material, and does not conflict with
established Air Force, DOD, or U.S. Government policy. Near the completion of our
audit, the Air Force issued Air Force Instruction 35-107, “Public Web Communications,”
October 21, 2009, and is currently working to refine its guidance.

Other DOD Organization Site Visit Results
We interviewed public Web site managers from 12 Defense Agencies, 5 Office of the
Secretary of Defense offices, and 1 combatant command, which in combination, are
responsible for managing 73 DOD public Web sites. Of the 73 public Web sites
reviewed, 41 were compliant, and 32 were noncompliant with DOD Web site
administrative guidance. Managers for 17 of the 32 Web sites lacked documented review
and approval procedures. Web site managers for the remaining 15 Web sites provided
content review and approval procedures that failed to fully address the following process
requirements for:
    • overall review before posting unmarked (FOUO) content;
    • clearance review;
    • review of content for sensitivity and distribution/release controls;
    • sensitivity of information in the aggregate; and
    • required training and knowledge of personnel.

Web Site Administrators Lack Web Operations Security
Training
DOD organizations failed to ensure all DOD Web site administrators received the
required training, and they implemented inconsistent procedures that omitted
requirements for Web OPSEC training. On August 6, 2006, the Vice Chairman of the
Joint Chiefs and the Deputy Secretary of Defense issued a joint message, “Information


                                            8
Security/Web Sites Alert.” The joint message requires all command OPSEC managers,
webmasters, and public affairs specialists who review information for Web posting to
receive Web OPSEC training. The message does not specify the frequency of the
training. Web OPSEC training is critical to ensuring the identification, proper control,
and proper posting of sensitive information to DOD public Web sites. Appropriate Web
OPSEC training enhances the ability of content review participants to perform essential
Web site administration tasks and manage the information in a responsible and secure
manner.

We found 452 of 470 DOD public Web site administrators did not complete required
Web OPSEC training: broken down by Service, 147 of 148 Army, 74 of 75 Navy, 45 of
45 Air Force, 17 of 17 Marine Corps, and 169 of 185 other DOD organizations’ Web site
administrators did not meet DOD OPSEC training requirements.

                                            Web site administrators responsible for
  DOD public Web site administrators        content review and approval duties cited on-
  stated they were unaware of the Web       the-job training and knowledge acquired
      OPSEC training requirement.           over the years as adequate preparation for
                                            executing the required review and approval
procedures. Web site administrators stated they were unaware of the Web OPSEC
training requirement. Other Web site administrators pointed to the lack of available Web
OPSEC training classes and funding shortfalls that precluded travel to obtain required
OPSEC training. See Figure 3.


     Figure 3: Web Operational Security Training Compliance for DOD
                             Organizations
                                          200
      Number of Web Site Administrators




                                          180                                                   169
                                          160
                                                147
                                          140

                                          120
                                                                                                              Failed to Complete
                                          100                                                                 Web OPSEC
                                                                                                              Training

                                          80              74
                                                                                                              Completed Web
                                                                                                              OPSEC Training
                                          60
                                                                   45
                                          40
                                                                                 17
                                          20
                                                      1        1        0             0               16
                                            0
                                                 Army     Navy     Air Force   Marine Corps    Other DOD
                                                                                              Organizations
                                                                                                 Visited




                                                                    9
Availability of Operations Security Training Courses
The Interagency OPSEC Support Staff (IOSS) sponsors Web OPSEC training through both
classroom and e-learning courses. Since April 2007, the IOSS has offered an adjunct
faculty option allowing Federal organizations to certify personnel to teach Web OPSEC
courses at the local command level. As of December 2009, no DOD organizations had
taken advantage of the opportunity to certify adjunct personnel to teach Web OPSEC
courses at their respective DOD organizations. The IOSS reports that they have sufficient
resources to accommodate the demand for the Web OPSEC training for all agencies.
Appendix C provides a schedule of available Web OPSEC courses.

Management Oversight
Incentive to Comply With DOD Policy
Ultimately, DOD Web site administrators lack the incentive to ensure the implementation
of proper Web site management procedures and internal controls. For instance, there
were no penalties for noncompliance with public Web site guidance. Management took
no action to determine if sensitive information was posted to DOD public Web sites. In
fact, few Web site administrators were aware of the need for a documented process for
accountability and authorization prior to posting. Most of the organizations did not
maintain records for tracking the posting of sensitive or personal information over the last
5 years. If such incidents should occur, organizations can withdraw the information from
a Web site; however, Web archiving tools can still retrieve the information.

Dissemination of Guidance
DOD Web administrators stated that the DEPSECDEF Memorandum was not
disseminated to their offices. A total of 168 Web administrators responsible for
managing 116 Web sites reported that they received neither the DEPSECDEF
Memorandum nor other Web site guidance and were unaware of the Web OPSEC
training certification requirement contained in the guidance. Inadequately trained DOD
Web site administrators had insufficient knowledge for assessing the nature of security
risks associated with reviewing and approving information before posting.

DOD Organization Internal Reviews
DOD organizations failed to conduct internal reviews to ensure that DOD Web site
administrators were implementing content review and approval procedures as required.
Organizations’ management control plans did not include controls for the review of Web
site content review and approval procedures. The absence of internal reviews increases
the potential for posting inappropriate content.

Web Risk Assessment Cell Continues to Find Sensitive
Information on DOD Publicly Accessible Web Sites
DOD approved the establishment of the JWRAC on February 12, 1999. Its mission is to
provide analyses of Web site risk and operations security. From 2007 through 2009,



                                            10
JWRAC identified sensitive information posted to multiple DOD publicly accessible
Web sites. For example, improper posting of sensitive information related to 702 FOUO
documents, 241 occurrences of PII including social security numbers, and 1,124 postings
of information designated as “for limited distribution.”

All DOD Components that have established publicly accessible Web sites are responsible
for ensuring that the information published on these sites does not compromise national
security or place DOD personnel at risk. DOD Component heads are required to enforce
the application of comprehensive risk management procedures ensuring that mission
benefits gained by using the Web are balanced against the potential security and privacy
risks created when aggregated DOD information is more readily accessible over the
World Wide Web.

Service Web Risk Assessment Cells
The Army, Navy, and Marine Corps established Web risk assessment cells to conduct
assessments of their publicly accessible Web sites, notify commands of Web site
violations, and ensure compliance with DOD policy requirements. The Air Force is
discussing establishing a Web risk assessment cell, but has not set a firm date by which to
make a decision. Given the continued findings of sensitive information posted to DOD
public Web sites and the current inaccuracies of Services’ Web site inventories, the Air
Force should move forward without further delay and establish a Web risk assessment
cell to assess risk and compliance with DOD OPSEC and privacy requirements for its
public Web sites.

Upon establishment of a DOD central Web site registration system, personnel working in
Service Web risk assessment cells should routinely search for unregistered DOD Web
sites. This practice would identify unregistered sites that should be blocked until they are
registered.

Conclusion
Many DOD organizations failed to implement the proper public Web site content review
and approval procedures for reducing the risk of posting sensitive information on DOD
public Web sites. DOD Web site administrators often maintained inconsistent levels of
information content review, were unaware of DOD Web site policies, and received little
or no proper training. DOD organizations failed to submit and submitted incomplete
Web site certifications. DOD failed to implement a followup process to verify
Components compliance with the Web site certification reporting requirement. Proper
implementation and strengthening of Web site policies will reduce the risk of posting
sensitive information to DOD public Web sites and detrimental impacts to DOD missions
and personnel.

Management Comments on the Finding and Our
Response
Please see Appendix D for complete management comments and audit responses on the
finding.


                                            11
Recommendations, Management Comments, and Our
Response

Revised Recommendation
Recommendation A.2 has been revised in response to comments from the Assistant
Secretary of Defense for Networks and Information Integration/DOD Chief Information
Officer’s and Vice Director, Defense Information Systems Agency, to better align with
the impending issuance of DOD Instruction 8430.aa.

A.1. We recommend the Assistant Secretary of Defense for Networks and
Information Integration/DOD Chief Information Officer re-emphasize to all DOD
Components the DOD Web Site Administration Policy and Procedures
requirements to develop review and approval procedures for information posted to
publicly accessible Web sites.

Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer Comments
The Deputy Chief Information Officer, responding for the Assistant Secretary of Defense
for Networks and Information Integration/DOD Chief Information Officer agreed, stating
the Assistant Secretary of Defense for Networks and Information Integration/DOD Chief
Information Officer will, in coordination with the offices of primary responsibility for
information release to the public and operations security, the Director of Administration
& Management, and the Under Secretary of Defense for Intelligence, respectively,
reemphasize and fully describe current review, clearance, and authorization policies and
procedures in the forthcoming DOD Instruction 8430.aa, "DoD Internet Services and
Internet-Based Capabilities."

Our Response
The Deputy Chief Information Officer’s comments are responsive and meet the intent of
our recommendations. No further comments are required.

A.2. We recommend the Assistant Secretary of Defense for Networks and
Information Integration/DOD Chief Information Officer, within 120 days, develop
and issue a DOD Instruction that requires heads of DOD Components to annually
assess and document, with signature, DOD Internet services and use of Internet-
based capabilities for compliance with applicable policies and procedures to include,
at minimum, that:

       a. Documented review and approval processes are implemented for all public
Web sites and copies of the documentation are filed with the DOD Component
CIOs,
       b. All Web site administrators have received the proper Web OPSEC
training,




                                           12
      c. All Web site administrators submit a plan of actions and milestones to the
responsible head of DOD Component for all public Web sites that have not
implemented a documented content review and approval process, and for those
personnel who have not received the proper Web OPSEC training;

       d. Web sites and associated processes not brought into compliance with the
instruction are shut down or disconnected; and

       e. Joint and Service Web risk assessment cells conduct routine searches for
unregistered DOD Web sites.

Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer Comments
The Deputy Chief Information Officer, responding for the Assistant Secretary of Defense
for Networks and Information Integration/DOD Chief Information Officer, agreed with
the original recommendation stating that the annual policy compliance assessment and
corrective action will be mandated in the impending DOD Instruction 8430.aa. In
addition, the Deputy Chief Information Officer suggested that the recommendation be
revised to better align with the Instruction and provide a more efficient process.

Our Response
The Deputy Chief Information Officer’s comments are partially responsive. Due to the
revisions, we revised recommendation A.2 to include suggestions from the Deputy Chief
Information Officer and the Vice Director, Defense Information Systems Agency. We
request the Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer provide comments for recommendations
A.2.a, A.2.b, A.2.c, A.2.d and A.2.e

A.3. We recommend the Assistant Secretary of Defense for Networks and
Information Integration/DOD Chief Information Officer develop enforcement
procedures for noncompliance with the annual certification requirements.

Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer Comments
The Deputy Chief Information Officer, responding for the Assistant Secretary of Defense
for Networks and Information Integration/DOD Chief Information Officer, agreed. The
forthcoming DOD Instruction 8430.aa mandates that Web sites and associated processes
comply with the instruction.

Our Response
The Deputy Chief Information Officer’s comments are partially responsive.
Management comments do not address the development of enforcement actions for non-
compliance with annual assessment requirements. However, management comments and
suggestions for Recommendation A.2 establish an annual Web site assessment



                                          13
requirement that, if not complied with, will result in DOD Web sites being shut down or
disconnected. No further comments are required.

A.4. We recommend the Director Joint Web Risk Assessment Cell expand
distribution of its annual OPSEC and threat assessment reports on DOD public
Web sites to the Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer and the Office of the Under Secretary
of Defense for Intelligence.

Defense Information Systems Agency Comments
The Vice Director, Defense Information Systems Agency agreed. The Vice Director
stated that the Joint Web Risk Assessment Cell will expand the distribution of its annual
OPSEC and threat assessments report on DOD public Web sites to the Assistant
Secretary of Defense for Networks and Information Integration/DOD Chief Information
Officer and the Office of the Under Secretary of Defense for Intelligence.

Our Response
The Vice Director’s comments are responsive and meet the intent of our
recommendations. No further comments are required.

A.5. We recommend the Secretary of the Air Force within 90 days develop a process
to review OPSEC threat and vulnerability risks for all its public Web sites.

Secretary of the Air Force Comments
The Director of Network Services Office of Information Dominance and Chief
Information Officer, responding for the Secretary of the Air Force, agreed. The Director
stated the Air Force Telecommunications Monitoring Assessment Program will be utilized to
conduct OPSEC vulnerability assessments for release of information to the public via
Internet-base Capabilities. Additionally, policy is being developed within AFI 10-701,
Operations Security (OPSEC), to address the lack of Air Force directive regarding OPSEC
reviews conducted prior to releasing information, as well as training for personnel reviewing
information.

Our Response
The Director of Network Services Office of Information Dominance and Chief
Information Officer’s comments are responsive and meet the intent of our
recommendations. No further comments are required.




                                             14
Finding B. DOD Lacks a Complete Inventory
for Publicly Accessible Web Sites
DOD did not comply with requirements to maintain a central Web site registration
system. This occurred because, after the disestablishment of the office of primary
responsibility under the 2005 Base Realignment and Closure process, the responsibility to
operate and maintain a central registration system was not reassigned. In addition,
although the Military Services and other DOD organizations had Web site inventory
systems, the systems were not accurate or current. Without an accurate inventory system,
DOD organizations cannot account for the proper management of all DOD’s publicly
accessible Web sites or reduce the risk of posting personally identifiable, FOUO, and
other sensitive information to DOD publicly accessible Web sites.

Criteria for DOD Web Site Inventory
Public Law 104-13, "Paper Reduction Act of 1995," Chapter 35, Section 3506 requires
each agency to maintain a current and complete inventory of its information resources
(including Web sites) to fulfill the requirements of the Government Information Locator
Service. Further, Section 3511 requires each agency to establish and maintain its own
information locator service as a component of, and to support the operation of, the
Government Information Locator Service. Public Law 107-347, 107th Congress,
"E -Government Act of 2002," December 17, 2002, amended Public Law 104-13 to
require heads of Federal agencies to prepare and maintain an inventory of information
resources, including public Web sites.

Office of Management and Budget policy requires agencies to establish a public Web site
inventory. Office of Management and Budget Circular A-130, "Management of Federal
Information Resources," states that agencies must establish and maintain inventories of
all agency information dissemination products 3 by implementing a management system.
Also, Office of Management and Budget M-05-04, “Policies for Federal Agency Public
Web Sites,” December 17, 2004, requires agencies to establish and maintain inventories
for information dissemination products, including public Web sites.

DOD Web site administrative guidance requires the Assistant Secretary of Defense for
Public Affairs to provide and maintain a central Web site registration system. Military
Services must establish and maintain their own registration systems and integrate their
systems within the DOD’s central system. To that end, the Army, Navy, Air Force, and
Marine Corps each have an individual policy and individual instructions requiring Web
site registration.




3
 Under Office of Management and Budget Circular A-130, the term "information dissemination product"
means any book, paper, map, machine-readable material, audiovisual production, or other documentary
material, regardless of physical form or characteristic, disseminated by an agency to the public.


                                                 15
DOD Web site administrative guidance requires the Assistant Secretary of Defense for
Networks and Information Integration/DOD Chief Information Officer to approve and
publish DOD instructions to guide, direct, or help Web site activities; and coordinate
training guidance for requirements addressing information security on the Web.

DOD Did Not Maintain a Central Web Site Inventory of All
Publicly Accessible Web Sites
The DOD did not comply with requirements to maintain an inventory of all DOD public
Web sites. Office of Management and Budget policies that implement the provisions of
Public Laws 104-13 and 107-347 require agencies to prepare and maintain an inventory
of information resources to include publicly accessible Web sites. DOD implemented
these OMB policies through its DOD Web site administrative guidance.

In 1998, DOD issued the Web site administrative guidance requiring the Assistant
Secretary of Defense for Public Affairs to establish and maintain a DOD central Web site
registration system. In November 2000, the American Forces Information Service
(AFIS), under the authority of the Assistant Secretary of Defense for Public Affairs,
received the responsibility to maintain the DOD central Web site registration system. In
FY 2000, AFIS began funding the Defense Technical Information Center to operate the
DOD central Web site registration system. In 2005, when the Defense Technical
Information Center needed to update and redesign the system, AFIS discontinued its
funding. As a result, the Defense Technical Information Center terminated the operation
of the central Web site registration system.

In 2006, after the registration system was shut down, AFIS began a review of the Web
site registration system requirements with the intention of issuing a plan of action by mid-
to late April 2006. However, AFIS never completed the review. In October 2008, AFIS
was disestablished under the 2005 Base Realignment and Closure process. In January
2008, the Defense Media Activity was established under the authority of the Assistant
Secretary of Defense for Public Affairs. AFIS functions, personnel, funding, and
associated resources were transferred to the Defense Media Activity. However,
responsibility for the requirement to operate a central Web site registration system was
not reassigned.

Inventories of DOD Organizations’ Public Web Sites
Military Services and other DOD organizations’ Web site inventories were inaccurate
and unreliable. Without an accurate and reliable inventory, the risk of posting personally
identifiable, FOUO, and other sensitive information on publicly accessible Web sites will
continue to be a concern.

The Military Services and other DOD organizations (see Appendix A) provided lists
totaling 3,211 publicly accessible Web sites; however, after testing the list of Web sites
for public accessibility, we determined that 791 (25 percent) were not publicly accessible.
Specifically, the lists contained password-protected and non-operational Web sites.
When we tested the contact information associated with the public Web sites, we found


                                            16
many of the points of contact were outdated. After contacting Web site managers, we
found an additional 51 publicly accessible Web sites which were not included in
Components’ inventory list. See Table 1.

            Table 1. Number of Public Web Sites Reported and Verified

DOD                   Reported In      Verified     Password-         Not Reported in
Component              Inventory                     Protected/      Inventory Listings
                        Listings                       Non-
                                                    Operational
Army                      1,111          791              320               20
Navy                        710          647               63               17
Air Force                   311          285               26                0
Marine Corps                502          336              166               14
Other Defense               577          361              216                0
    Total                 3,211        2,420              791               51

Army Site Visit Results
A September 2007 Army Audit Agency Report found that since 2005, the Army did not
have a central Web site registration repository for its public Web sites, even though it
had anticipated establishing a central Web site registration system for all Army Web sites
by November 2007. We confirmed that the Army had not established an inventory
system for public Web sites. In order to respond to the DEPSECDEF Memorandum
issued to DOD Components on September 25, 2008, the Office of the Army Chief
Information Officer/G6 issued an All Army Action data call, dated December 8, 2008, for
Army public Web sites. The data call required Army commands and agencies to submit a
list of their public Web sites and Web site personnel information by February 4, 2009.

We requested a list of Army public Web sites, and on March 31, 2009, the Office of the
Army Chief Information Officer/G-6 provided an inventory list of 1,111 public Web sites
that was derived from the All Army Action data call. We tested all 1,111 Web sites for
public accessibility and found 320 (29 percent) that were not publicly accessible. The
inventory listing included password-protected and non-operational Web sites. We also
tested Web site inventory point-of-contact information and found much of it was outdated
because Web site administrators did not update Web site contact information when
personnel changes occurred.

For the Army sites we visited, the inventory list showed 249 Web sites. During our site
visits, we verified that all 249 Web sites were publicly accessible. However, we found an
additional 20 Web sites not listed by the Army sites we visited.

The Asset and Vulnerability Tracking Resource System, designated on March 12, 2009,
as the registration system for all Army public Web sites, was not designed to provide an
accurate inventory of Army public Web sites. We received a Web site inventory list


                                           17
based on an Asset and Vulnerability Tracking Resource system report dated
June 15, 2009; the system inventory report listed 1,938 public and private Web sites. We
requested a separate list of publicly accessible Web sites only, and were told that because
Web sites, both public and private, were not properly labeled when entered into the
system, an accurate report listing for public Web sites only was unavailable. For the
Asset and Vulnerability Tracking Resource System list of public Web sites to be
integrated with a DOD central registration system, the Army system must be able to
distinguish between public and all other Web sites, which it does not do.

Results of Navy, Air Force, and Marine Corps Site Visits
Navy, Air Force, and Marine Corps policies require all publicly accessible Web sites to
be registered in their respective registration systems. Secretary of the Navy Instruction
5720.47B, “Department of The Navy Policy For Content of Publicly Accessible World
Wide Web Sites,” December 28, 2005, mandates registration of Navy Web sites in the
Naval Web Site Registration System and Marine Corps Web sites in the Marine Corps
Web Site Registration Database. The Air Force Policy Memorandum “Public Web Site
Registration,” May 2, 2007, requires registration of Air Force public Web sites in the Air
Force Public Information Management System.

We tested the Navy, Air Force, and Marine Corps Web site registration system
inventories for accuracy and currency. We requested a list of public Web sites and were
provided Web site inventory lists derived from each of the three Services’ registration
systems:
    • For the listing of 710 Navy-provided Web sites, we found 63 sites (9 percent)
       were not publicly accessible.
    • For the listing of 311 Air Force-provided Web sites, we found 26 sites (8 percent)
       were not publicly accessible.
    • For the listing of 502 Marine Corps-provided Web sites, we found 166 sites (33
       percent) were not publicly accessible.
The Navy, Air Force, and Marine Corps Web site lists included password-protected and
non-operational Web sites. Point-of-contact information was outdated because Web site
administrators did not update contact information when personnel changes occurred.

In addition, for the Navy sites we visited, the inventory list showed 25 Web sites. During
our site visits, we verified that all 25 Web sites were publicly accessible, and we found an
additional 17 Web sites not listed on the Navy inventory. For the Marine Corps sites we
visited, the inventory list showed 24 Web sites. During our site visits, we verified that all
24 Web sites were publicly accessible; however, we found an additional 14 Web sites not
listed on the Marine Corps inventory. One possible explanation for some of the
inaccuracies in the Marine Corp listing may be attributed to the current effort to migrate
all Marine Corps public Web sites to the new Web site, www.marines.mil. Internal
control guidance for the Navy, Air Force, and Marine Corps did not mandate review of
each Service’s public Web sites.




                                             18
Other DOD Organization Site Visit Results
We reviewed Web site registration practices and requirements for 12 DOD agencies, 5
offices of the Office of the Secretary of Defense, and 1 combatant command. We
requested public Web site inventory lists from these DOD organizations which provided
lists containing 577 Web sites. We tested all 577 Web sites for public accessibility and
determined that 216 (37 percent) were not publicly accessible. The 216 Web sites
included password-protected and non-operational Web sites.

Although DOD Web site administrative guidance requires the Military Services to
establish and maintain a Web site registration system, the requirement does not extend to
DOD agencies and the offices of the Secretary of Defense. However, the Web site
registration requirement should extend to DOD organizations such as the Defense
Logistics Agency and the Defense Information Systems Agency which operate multiple
public Web sites. DOD should establish a threshold requirement for non-Service DOD
organizations such as the Defense Information Systems Agency and Defense Logistics
Agency to establish and maintain a public Web site registration system based on the
number of public Web sites they operate. Web site administrators reported they were
unaware of any Federal or DOD policy requiring them to register their public Web sites
outside of their offices.

Management Actions
                                                         According to the Defense Media
     However, the registration application does not      Activity Director of Public Web
    completely fulfill the requirements of public law    sites, the Defense Media Activity
     and Federal policy to maintain a current and        established a new Web site
   complete inventory of information dissemination       registration capability at the
                         products.                       Defense.gov Web site in August
                                                         2009. The activity had not
                                                         issued a DOD-wide notification
of the new registration capability as of August 30, 2010. Implementation of the Web site
registration application provides a capability for DOD Web site managers to register their
public Web sites. However, completion of the registration application does not
completely fulfill the requirements of public law and Federal policy to maintain a current
and complete inventory of information dissemination products. Additionally, the
application does not fully comply with DOD policy which requires all Service
registration systems to integrate with the DOD registration system.

Conclusion
DOD did not maintain an agency-wide inventory of its public Web sites as required by
law and DOD policy. Military Services were not maintaining Web site inventory systems
that reflect an accurate accounting of their publicly accessible Web sites. Twenty-five
percent of the Web sites listed in the public Web site inventories for the Military Services
and DOD organizations were not publicly accessible. Without an accurate inventory,
DOD organizations cannot account for the proper management of all of its publicly



                                            19
accessible Web sites to reduce the risk of posting personally identifiable, FOUO, and
other sensitive information to DOD publicly accessible Web sites.

Recommendations, Management Comments, and Our
Response
B.1. We recommend the Assistant Secretary of Defense for Public Affairs identify
the system that will maintain the inventory of all DOD publicly accessible Web sites
and notify all Components of their requirements to register publicly accessible Web
sites within 120 days.

Assistant Secretary of Defense for Public Affairs Comments
The Deputy Assistant Secretary of Defense for Outreach and Social Media, responding
for the Assistant Secretary of Defense for Public Affairs, agreed. The Deputy Assistant
Secretary of Defense for Outreach and Social Media stated that the registration
requirements are published in the existing “Web Site Administration Policies and
Procedures,” and these requirements will be reissued in the impending DOD Instruction
8430.aa, “DOD Internet Services and Internet-Based Capabilities.”

Our Response
The Deputy Assistant Secretary of Defense for Outreach and Social Media comments are
responsive and meet the intent of the recommendation. No further comments are
required.

B.2. We recommend the Assistant Secretary of Defense for Networks and
Information Integration/DOD Chief Information Officer:

        a. Require all DOD organizations to register their publicly accessible Web
sites with the re-established registration system implemented in Recommendation
B.1.

Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer Comments
The Deputy Chief Information Officer, responding for the Assistant Secretary of Defense
for Networks and Information Integration/DOD Chief Information Officer, agreed. The
Deputy Chief Information Officer stated the impending DOD Instruction 8430.aa will
mandate procedures to register Internet addresses and contact information for all DOD
Internet services, external official presence, 4 and other official uses in the registration
and inventory system(s) hosted by Assistant Secretary of Defense for Public Affairs on
Defense.gov.



4
 External official presence is defined by draft DOD Instruction 8430.aa as official public affairs activities,
as defined in DOD Instruction 5400.13, conducted on Internet-based capabilities (e.g., Combatant
Commands on Facebook, Chairman of the Joint Chiefs of Staff on Twitter).



                                                      20
       b. Develop and implement policies to enforce the registration of all DOD
publicly accessible Web sites.

Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer Comments
The Deputy Chief Information Officer, responding for the Assistant Secretary of Defense
for Networks and Information Integration/DOD Chief Information Officer, agreed. The
impending DOD Instruction 8430.aa mandates that Web sites be registered. Additionally
comments for Recommendations A.2, establishes that Web sites not brought into
compliance with the instruction will be shut down or disconnected.

       c. Require DOD Component Chief Information Officers to maintain accurate
inventories of publicly accessible Web sites and ensure their inventories are
integrated with the re-established DOD-wide public Web site registration system.

Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer Comments
The Deputy Chief Information Officer, responding for the Assistant Secretary of Defense
for Networks and Information Integration/DOD Chief Information Officer, agreed. The
Deputy Chief Information Officer stated the impending DOD Instruction 8430.aa assigns
DOD Component Chief Information Officers the responsibility to advise the Assistant
Secretary of Defense for Networks and Information Integration/DOD Chief Information
Officer and ensure that the policies for the use of DOD Internet services and Internet-
based capabilities issued by Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer are implemented within the Component. The
instruction will also establish the requirement to register the Internet addresses and
contact information for all DOD Internet services external official presence and other
official uses in the registration and inventory system(s) hosted by Assistant Secretary of
Defense for Public Affairs on Defense.gov.

       d. Establish a minimum threshold based on the number of publicly accessible
Web sites managed by non-Service DOD organizations requiring the organizations
to establish and maintain an integrated Web site registration system.

Assistant Secretary of Defense for Networks and Information
Integration/DOD Chief Information Officer Comments
The Deputy Chief Information Officer, responding for the Assistant Secretary of Defense
for Networks and Information Integration/DOD Chief Information Officer, partially
agreed. The Assistant Secretary of Defense for Public Affairs will host and operate a
registration and inventory system(s) capable of serving the inventory needs of all DOD
Components. DOD Components may optionally operate organizational inventory
systems to meet their specific needs, but policy should not require the establishment of
potentially redundant systems. The impending DOD Instruction 8430.aa has been
modified to require the Assistant Secretary of Defense for Public Affairs to host and


                                           21
operate a registration system(s) for the addresses of public DOD Web sites and external
official presence that is capable of producing individual Component inventories. The
instruction also requires that the CIOs ensure that the Component’s inventory of public
Web sites and external official presence is maintained on the registration and inventory
system(s) hosted and operated by the Assistant Secretary of Defense for Public Affairs.

Our Response
The Deputy Chief Information Officer’s comments are responsive and meet the intent of
recommendations B.2.a, B.2.b., B.2.c. and B.2.d. We agree that the creation of
potentially redundant systems should be avoided and that the implementation of a fully
functional central DOD Web site inventory system is essential to serving the inventory
needs of all DOD Components. We confirmed that the draft DOD Instruction 8430.aa
contains the requirement for inventory capability and requires the Assistant Secretary of
Defense for Public Affairs to host and operate a registration system(s) for the addresses
of public DOD Web sites and external official presence that is capable of producing
individual Component inventories. No further comments are required.




                                           22
Appendix A. Scope and Methodology
We conducted this performance audit from February 2009 through August 2010 in
accordance with generally accepted government auditing standards. The standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We evaluated the implementation of the DOD Web Site Administration Policies and
Procedures; Deputy Secretary of Defense Memorandum; and Information Security/Web
site Alert. We interviewed personnel and obtained information from the Military
Services, 12 Defense Agencies, 5 Secretary of Defense offices, and 1 Combatant
Command; to include the Defense Logistics Agency, Defense Information Systems
Agency, Defense Technical Information Center, Defense Contract Audit Agency,
Defense Threat Reduction Agency, Defense Media Activity, TRICARE Management
Activity, Defense Finance and Accounting Service, Defense Prisoner of War/Missing
Personnel Office, National Geospatial-Intelligence Agency, Defense Advanced Research
Project Agency, National Security Agency; Office of the General Counsel, Assistant
Secretary of Defense for Public Affairs, Assistant Secretary of Defense for Network and
Information Integration/DOD Chief Information Officer, Under Secretary of Defense for
Acquisitions, Technology, and Logistics, Secretary of Defense Chief Information Officer;
and U.S. Strategic Command, and Public Affairs Officers and Web administrators with
the Departments of the Army, Navy, Air Force, and Marine Corps.

We non-statistically selected military installations with publicly accessible Web sites to
determine compliance with DOD Web site administrative guidance. Our review included
the following 41 military installations selected because of a concentrated number of
publicly accessible Web sites in a particular location.

   •   Army Medical Department Center and School, Fort Sam Houston, Texas
   •   Army Medical Command, Fort Sam Houston, Texas
   •   U.S. Army Garrison, Fort Sam Houston, Texas
   •   U.S. Army North, Fort Sam Houston, Texas
   •   U.S. Army South, Fort Sam Houston, Texas
   •   Navy Region Southwest Morale, Welfare, and Recreation, San Diego, California
   •   Commander Navy Region Southwest, San Diego, California
   •   Helicopter Maritime Strike Squadron Four One, Naval Air Station North Island,
       San Diego, California
   •   Helicopter Anti-Submarine Squadron Light Four Five, Naval Air Station North
       Island, San Diego, California
   •   Commander Helicopter Maritime Strike Wing, U.S. Pacific Fleet, Naval Air
       Station North Island, San Diego, California
   •   Helicopter Sea Combat Squadron Two One, Naval Air Station North Island, San
       Diego, California


                                           23
   •   Commander, Naval Beach Group One, Naval Amphibious Base Coronado, San
       Diego, California
   •   Command, Naval Surface Forces, Naval Amphibious Base Coronado, San Diego,
       California
   •   Space and Naval Warfare Systems Command, San Diego, California
   •   Commander Explosive Ordnance Disposal Group One, Naval Amphibious Base
       Coronado, San Diego, California
   •   Tactical Air Control Squadron Twelve, Naval Amphibious Base Coronado, San
       Diego, California
   •   Navy Medical Center, San Diego, California
   •   Commander, Submarine Forces, U.S. Pacific Fleet, Pearl Harbor, Hawaii
   •   Patrol Squadron 47, Kaneohe Bay Marine Corps Base, Kaneohe, Hawaii
   •   Patrol Squadron 9, Kaneohe Bay Marine Corps Base, Kaneohe, Hawaii
   •   Personnel Support Detachment Activity Pearl Harbor, Honolulu, Hawaii
   •   Commander U.S. Pacific Fleet, Honolulu, Hawaii
   •   Pearl Harbor Naval Shipyard, Pearl Harbor, Hawaii
   •   Joint Pacific Command, Hickam Air Force Base, Hawaii
   •   Mobile Diving and Salvage Unit One, Hickam Air Force Base, Hawaii
   •   Commander Navy Region Hawaii Fleet and Family Readiness Group, Pearl
       Harbor, Hawaii
   •   Naval Computer and Telecommunications Area Master Station Pacific, Wahiawa,
       Hawaii
   •   Commander Navy Region Hawaii, Pearl Harbor, Hawaii
   •   Air Education and Training Command/37th Training Wing, Lackland Air Force
       Base, Texas
   •   Air Education and Training Command/Wilford Hall Medical Center, Lackland
       Air Force Base, Texas
   •   Air Force Reserve Command/433rd Airlift Wing, Lackland Air Force Base, Texas
   •   Air Force Security Forces Center, Lackland Air Force Base, Texas
   •   Air National Guard/149th Fighter Wing, Lackland Air Force Base, Texas
   •   Air Education and Training Command/12th Flying Training Wing, Randolph Air
       Force Base, Texas
   •   Air Education and Training Command/Headquarters, Randolph Air Force Base,
       Texas
   •   Air Forces Personnel Center, Randolph Air Force Base, Texas
   •   First Marine Expeditionary Forces, Camp Pendleton, San Diego, California
   •   Third Marine Aircraft Wing, Marine Corps Air Station Miramar, San Diego,
       California
   •   First Marine Division, Camp Pendleton, San Diego, California
   •   First Marine Logistics Group, Camp Pendleton, San Diego, California
   •   Marine Corps Base Hawaii , Kaneohe Bay, Hawaii

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.


                                          24
Prior Coverage
During the last 9 years, the Department of Defense Inspector General (DOD IG), the
Department of the Army, and the Department of the Navy have issued six reports
discussing Web site security policy. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed at
https://www.aaa.army.mil/. Navy reports are unavailable over the Internet.

DOD IG
DOD IG Report No. D-2002-129, “DOD Web Site Administration, Policies, and
Practices,” July 19, 2002

DOD IG Report No. D-2002-098, “Army Web Site Administration, Policies, and
Practices,” June 5, 2002

DOD IG Report No. D-2002-062, “Air Force Web Site Administration, Policies, and
Practices,” March 13, 2002

DOD IG Report No. D-2001-130, “DOD Internet Practices and Policies,” May 31, 2001

Army
U.S. Army Audit Agency Report No. A-2007-0206-FFI, “Army Web Sites: Army Chief
Information Officer/G-6,” September 7, 2007

Navy
Naval Audit Service Report No. N2002-0034, “Department of the Navy Publicly
Accessible Web Sites,” March 1, 2002




                                          25
Appendix B. Public Web Site Certification
Compliance
    DOD             Submitted       Submitted       Agency    Submitted   Certification   Certification
  Component        Certification   Certification     Did       After IG    Contained        Missing
                   by Due Date        After          Not      Contacted     All Data       Required
                     1-20-09        Extended        Certify    Agency      Required          Data
                                    Due Date
                                     1-20-09
Department of                       April 17 09                  X          POA&M
the Army
Department of                       Jan 27 09                               POA&M
the Navy
Department of                       Jan 29 09                                               Training
the Air Force                                                                               POA&M
Marine Corps                        Jan 27 09                               POA&M
Business                            Feb 17 09                                  X
Transformation
Agency
Defense             Dec 23 08                                                              Review &
Advanced                                                                                   Approval
Research                                                                                   Training
Projects Agency
Defense Contract    Dec 04 08                                                               Training
Management
Agency
Defense             Dec 18 08                                                               Training
Commissary
Agency
Defense Security                    June 23 09                   X             X
Service
Defense Finance                                         X
Accounting
Service
Defense             Dec 23 08                                                               Training
Intelligence
Agency
Defense             Dec 01 08                                                               Training
Information                                                                                 POA&M
Systems Agency
Defense                             Feb 25 09                               POA&M
Logistics
Agency

Defense Security    Oct 29 08                                                  X
Cooperation
Agency



                                                   26
    DOD            Submitted       Submitted       Agency    Submitted   Certification   Certification
  Component       Certification   Certification     Did       After IG    Contained        Missing
                  by Due Date        After          Not      Contacted     All Data       Required
                    1-20-09        Extended        Certify    Agency      Required          Data
                                   Due Date
                                    1-20-09
Missile Defense    Dec 24 08                                                  X
Agency
National                           Jan 23 09                                               Training
Geospatial-
Intelligence
Agency
National           Jan 20 09                                                  X
Security Agency
Pentagon Force                     Mar 11 09                               Training
Protection                                                                 POA&M
Agency
Defense Media                                          X
Activity
Defense Human                                          X
Resource
Activity
Defense                                                X
Manpower Data
Center
OUSD Personnel                                         X
and Readiness
Information
Management
Defense                                                X
Department
Advisory
Committee on
Women in the
Services
Defense                                                X
Personnel
Security
Research Center
Employer                                               X
Support of the
Guard and
Reserve
Federal Voting                                         X
Assistance
Program

DOD Office of                                          X
the Actuary




                                                  27
    DOD             Submitted       Submitted       Agency    Submitted   Certification   Certification
  Component        Certification   Certification     Did       After IG    Contained        Missing
                   by Due Date        After          Not      Contacted     All Data       Required
                     1-20-09        Extended        Certify    Agency      Required          Data
                                    Due Date
                                     1-20-09
DOD Sexual                                              X
Assault
Prevention and
Response Office
Defense Travel                                          X
Management
Office
National Defense                    Aug 07 09                    X          POA&M
University
DOD Education                       Mar 18 09                                               Training
Activity
DOD Prisoner of                                         X
War/Missing
Personnel Office
Defense                             April 14 09                  X             X
Technical
Information
Center
DOD Test                                                X
Resources
Management
Center
Defense                                                 X
Technology
Security
Administration
Director of                                             X
Administration
& Management
Office of                                               X
Economic
Adjustment
TRICARE                             Aug 13 09                    X                          Training
Management
Activity/ Health
Affairs
Washington                          Mar 02 09                               POA&M
Headquarter
Service

Acquisition                         Feb 18 09                               POA&M
Technology &
Logistics




                                                   28
    DOD             Submitted       Submitted       Agency    Submitted   Certification   Certification
  Component        Certification   Certification     Did       After IG    Contained        Missing
                   by Due Date        After          Not      Contacted     All Data       Required
                     1-20-09        Extended        Certify    Agency      Required          Data
                                    Due Date
                                     1-20-09
Director Defense                                        X
Research and
Engineering
Under Secretary                                         X
Defense
Intelligence
Office Secretary    Dec 24 08                                                  X
Defense Policy
Assistant                                               X
Secretary of
Defense for
International
Security Affairs
Assistant                                               X
Secretary of
Defense for
Asian and
Pacific Security
Affairs
USD Personnel                                           X
and Readiness
OSD                                                     X
Comptroller
Defense Contract                    Jan 21 09                               POA&M
Audit Agency
Director NET                                            X
ASSESSMENT
Office of                           Jun 17 09                    X                          Training
General Council                                                                             POA&M
OSD Public                                              X
Affairs
Legislative                                             X
Affairs


Alternate Joint                                         X
Communications
Center Raven
Rock
Director of         Dec 19 08                                               POA&M
Operation Test
and Evaluation




                                                   29
    DOD           Submitted       Submitted       Agency    Submitted   Certification   Certification
  Component      Certification   Certification     Did       After IG    Contained        Missing
                 by Due Date         After         Not      Contacted     All Data       Required
                   1-20-09        Extended        Certify    Agency      Required          Data
                                  Due Date
                                    1-20-09
Program                            Jan 29 09                              POA&M
Analysis and
Evaluation
Civilian                          Apr 20 09                                  X
Personnel
Management
Service
North American                                        X
Aerospace
Defense
Command
Assistant                                             X
Secretary of
Defense for
Intelligence
Oversight
Defense                                               X
Business Board
Joint Staff                                           X
Northern                                              X
Command
Pacific                                               X
Command
Southern                                              X
Command
Central                                               X
Command
European                                              X
Command
Special                                               X
Operations
Command

Transportation                                        X
Command


Joint Forces                                          X
Command


Strategic                          Oct 15 09                    X            X
Command




                                                 30
      DOD             Submitted       Submitted       Agency    Submitted   Certification   Certification
    Component        Certification   Certification     Did       After IG    Contained        Missing
                     by Due Date        After          Not      Contacted     All Data       Required
                       1-20-09        Extended        Certify    Agency      Required          Data
                                      Due Date
                                       1-20-09
Africa Command                                            X
DOD Office of                          Jan 8, 10                    X            X
Inspector
General
Defense Threat                                            X5
Reduction
Agency
Networks                             Nov 17, 09                     X                        Training
Information and
Integration/Chief
Information
Officer
    Totals                10              22              41       9             21              11




5
    DTRA submitted a draft SOP document

                                                     31
           Appendix C. Interagency Operations
           Security Support Staff FY 2010 Training
           Schedule for Courses OPSE-1500 and
           OPSE-3500
 Course Date            Course Name                 NCS Course #         Location
Oct. 20-21         OPSEC & Public Release            OPSE-1500     IOSS - Greenbelt, MD
                         Decisions
Nov. 2-4         OPSEC & Web Risk Assessment         OPSE-3500     IOSS - Greenbelt, MD
Nov. 17-18         OPSEC & Public Release            OPSE-1500         E-Learning
                         Decisions
Jan. 11-13       OPSEC & Web Risk Assessment         OPSE-3500     IOSS - Greenbelt, MD
Jan. 26-27          OPSEC & Public Release           OPSE-1500     IOSS - Greenbelt, MD
                         Decisions
Feb. 23-24          OPSEC & Public Release           OPSE-1500         E-Learning
                         Decisions
Mar. 22-24       OPSEC & Web Risk Assessment         OPSE-3500     IOSS - Greenbelt, MD
Apr. 26-27         OPSEC & Public Release            OPSE-1500     IOSS - Greenbelt, MD
                         Decisions
June 14-16       OPSEC & Web Risk Assessment         OPSE-3500     IOSS - Greenbelt, MD
June 22-23          OPSEC & Public Release           OPSE-1500         E-Learning
                         Decisions
Aug. 3-4            OPSEC & Public Release           OPSE-1500     IOSS - Greenbelt, MD
                         Decisions
Aug. 30-Sep. 1   OPSEC & Web Risk Assessment         OPSE-3500     IOSS - Greenbelt, MD
Sep. 21-22          OPSEC & Public Release           OPSE-1500         E-Learning
                         Decisions




                                               32
Appendix D. Management Comments on the
Findings and Our Response
Defense Information Systems Agency Comments on the
Findings
The Vice Director, Defense Information Systems Agency responded for the Director,
Joint Web Risk Assessment Cell. Below are excerpts from the draft report, clarifications
that Defense Information Systems Agency recommended, and audit responses.

Item 1 (page i, “What We Recommend”)
Excerpt: “Require heads of DOD Components to certify annually that a documented Web
review and approval process has been developed and implemented. Require all Web
administrators to receive the proper Web operations security training. Require Military
Services to maintain an integrated registration system with the DOD’s registration
system.”

Management Comments. Add 4th recommendation bullet to read "Upon establishment
of a DOD central Web site registration system, personnel working in Joint and Service
Web Risk Assessment Cells should routinely search for unregistered DOD Web sites.
This practice would identify unregistered sites that should be blocked until they are
registered."

Audit Response. Our revised Recommendation A.2 includes the requirement to
routinely search for unregistered DOD Web Sites and disconnect Web sites that are not in
compliance with the forthcoming DOD Instruction 8430.aa which will require all public
Web sites to be registered within a DOD central Web site inventory system.

Item 2 (page ii, “Recommendations Table”)
Excerpt: “Recommendations Requiring Comment.”

Management Comments. “Suggest that corresponding page numbers be included in the
“Recommendations Requiring Comment” entries located in the right-hand column of the
Recommendations Table.”

Audit Response. We reviewed the management comments and determined that the
report revisions were not required. Adding page numbers in the Recommendations Table
is contrary to internal DOD OIG policy.

Item 3 (page 1, “Joint Web Risk Assessment Cell”)
Excerpt: “The Joint Web Risk Assessment Cell (JWRAC), a DEPSECDEF-chartered cell
within the Defense Information Systems Agency, is responsible for conducting analyses
of content and data on DOD publicly accessible Web sites. JWRAC reviews Web sites
for compliance with existing DOD Web policy and directs remediation actions to bring

                                           33
Web sites into compliance. JWRAC performs analyses of the aggregate data to
determine any existing OPSEC risks that may pose an immediate or potential threat to
warfighters.”

Management Comments. Suggest editing lines 1 and 2 to read, "The Joint Web Risk
Assessment Cell (JWRAC), a DEPSECDEF-chartered cell within the Defense
Information Systems Agency, is responsible for conducting operations security (OPSEC)
assessments and trend analyses of content and data on DOD publicly accessible Web
sites."

Audit Response. We reviewed the management comments and determined that the
report revisions were required. We made the revisions as suggested.

Item 4 (page 1, “Joint Web Risk Assessment Cell”)
Excerpt: “JWRAC performs analyses of the aggregate data to determine any
existing OPSEC risks that may pose an immediate or potential threat to warfighters.”

Management Comments. Suggest revising lines 5 and 6 to read “The JWRAC performs
analyses of the data to determine any existing OPSEC risks that may pose an immediate
or potential threat to warfighters.”

Audit Response. We reviewed the management comments and determined that the
report revisions were required. We made the revisions as suggested.

Item 5 (page 2, “Joint Web Risk Assessment Cell”)
Excerpt: “According to officials, JWRAC conducts analysis of organization Web sites
primarily by request from DOD organizations.”

Management Comments. Suggest revising lines 1 and 2 to read “According to officials,
JWRAC conducts analyses of organization Web sites on an annual schedule and by
request from DOD organizations.”

Audit Response. We reviewed the management comments and determined that the
report revisions were required. We made the revisions as suggested.

Item 6 (page 10, “Incentive to Comply With DOD Policy”)
Excerpt: “Management took no action when sensitive information was posted.”

Management Comments. Suggest removing sentence 2 which reads “Management took
no action when sensitive information was posted.” This sentence appears to contradict
the information located on page 7, paragraph 3 (lines 3 and 4), which states “After we
notified the manager of the noncompliance, they removed the PII from the seven public
Web sites we identified.”

Audit Response. We reviewed the management comments and determined that the
report revisions were required. We revised the sentence to clarify its intent.


                                           34
Item 7 (page 12, “Service Web Risk Assessment Cells”)
Excerpt: “Upon establishment of a DOD central Web site registration system, personnel
working in Service Web Risk Assessment Cells should routinely search for unregistered
DOD Web sites. This practice would identify unregistered sites that should be blocked
until they are registered.”

Management Comments. Suggest deleting the paragraph and adding it to page i,
paragraph 7, immediately following the 3 other recommendations and add the words
“Joint” and “and” to the second line of the paragraph.

Audit Response. Our revised Recommendation A.2 includes the requirement to
routinely search for unregistered DOD Web Sites and disconnect Web sites that are not in
compliance with the forthcoming DOD Instruction 8430.aa which will require all public
Web sites to be registered within a DOD central Web site inventory system.

Item 9 (page 13, “Recommendations”)
Excerpt: “We recommend the Secretary of the Air Force within 90 days develop a
process to review OPSEC threat and vulnerability risks for all its public Web sites.”

Management Comments. Edit Recommendation A.5 to read “We recommend the
Secretary of the Air Force within 90 days develop a process to review OPSEC threat and
vulnerability risks for all its public Web sites, to include establishing an Air Force Web
Risk Assessment Cell.” “Each military Component needs to maintain a Web risk
assessment cell in order to perform Web OPSEC vulnerability assessments of its
respective Service's public Web sites. The Air Force is the only Service Component that
does not have an operational Web risk assessment cell.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. Air Force provided comments to this report designating the Air Force
Telecommunications Monitoring Assessment Program to conduct Web OPSEC
vulnerability assessments for release of information to the public via Internet-based
capabilities.




                                            35
Appendix E. Criteria for DOD Web Site
Inventory
Public Law
   •   Public Law 104-13, "Paper Reduction Act of 1995," Chapter 35:
          o Section 3506 – Each agency shall maintain a current and complete
              inventory of the agency's information resources to fulfill the requirements
              of Section 3511.
          o Section 3511 – The Director of the Office of Management and Budget
              shall establish and maintain an electronic Government Information
              Locator Service, which shall identify the major information systems,
              holdings, and dissemination products (including Web sites) of each
              agency. Further, the Law requires each agency to establish and maintain
              its own information locator service as a component of, and to support the
              operation of, the Government Information Locator Service.
   •   Public Law 107-347, 107th Congress, "E-Government Act of 2002,"
       December 17, 2002 – Each Federal agency shall develop and establish a public
       domain directory (inventory) of public Web sites.

Office of Management and Budget
   •   Office of Management and Budget Circular A-130, "Management of Federal
       Information Resources" – Agencies will maintain and implement a management
       system for all information dissemination products which must establish and
       maintain inventories of all agency Web sites. According to the guidance, the term
       “information dissemination product” means any book, paper, map, machine-
       readable material, audiovisual production, or other documentary material,
       regardless of physical form or characteristic, disseminated by an agency to the
       public.
   •   Office of Management and Budget M-05-04, “Policies for Federal Agency Public
       Web Sites,” December 17, 2004 – Federal agency public Web sites are
       information dissemination products as defined in OMB Circular A-130. Agencies
       are required, under OMB Circular A-130 and Public Law 104-13, to establish and
       maintain inventories of information dissemination products.

DOD
“Web Site Administration Policies and Procedures,” November 25, 1998, updated
January 11, 2002.
   • The Assistant Secretary of Defense for Public Affairs is responsible for
       establishing and maintaining a central Web site registration system for DOD that
       meets the requirements for the Government Information Locator Service and is
       integrated with each Service-level registration system.




                                           36
•   The Assistant Secretary of Defense for Networks and Information
    Integration/DOD Chief Information Officer is responsible for:
        o providing DOD procedural guidance for establishing, operating, and
            maintaining Web sites;
        o developing and maintaining training guidance and requirements
            addressing information security on the Web; and
        o approving and publishing DOD instructions and publications to guide,
            direct, or assist Web site activities.

•   The Heads of the DOD Components shall register each publicly accessible Web
    site with the Government Information Locator Service. Further, each Service will
    establish and maintain Web site registration systems integrated with DOD’s
    central Web site registration system.




                                       37
Appendix F. Deputy Secretary of Defense
Memo for Office of the Inspector General

                               tlliPllrl SECRET�RY OF OEFiiNSe:
                                      '0'0 og"N.� ....NTA<>DN
                                    WASH,NOH,... tx: 2(00,         "" �




                                                                                             SEP251M

   MlJMORA.'1DUM FOR ]NSl'ECfOR GT;NERAL OF urn DEPA,R:1MENT
                                  OF Dl3FENSl!



           0,",�." �, '!J.ll ffI. !III! VI"" (:M;I'!IlIl� oftlH> Joint (:hlei'll nf .�lOrr ""d 1 ;","",1 .
  j....,j 'ncss>fI" u. d.� IlQ(l "�""",",,,I, .,lwy, lhau Iv .."",,., j" r...."wi"" placed on 1)0 1)
  publid, """"""blc w oo ,il",,, ",.ic",u:l w.-""emily 000<A:ru> " 00 11.,(publicly ...ilalol�
  """,ton, ... ill ...
                    ",onl",,,,� will, tl", Oot..rtJ,..",'. "W"" ,�j", IIJ".j"'",atklO, PoUob.,ld
  f'rucI:dI""", "dolw Nu.c-mlx:r25. EI')8. Thot m"""'� fun""",,! QIl.::.�
                                                                        ., "i""
  !)'Nnnl'JIli""Li""" ,m:r n," rn:c"Jin� L\truO Y""""" I/m,,,,,."', :u"i,i\<C iw",JIl4Iioo
  !iut"""Uy""" "     ill he ft>Ul1ll ,., l'"hlicly oc....
                                                      ...
                                                          ' ibl o web ,iIC"


          IV. <""tim., 10 lx, C(y",,,,,,j ,oolHb< I""" of.. rt.."'-,,,," ,,, II", J)"D web","
  =uyily polic] lIml ,..Ji. YULI I� iIIcl uJu thi:o ", ,,,I,,, "" """ ul'..�lil'"J'" ;",IMll t in ,"ocoti,'fl
  Y"''' "Vffl; �\""""i"", bilily. 0", ""i,,1 uf"""'WI ;, 1t.. C"",.II Lao '" (70J) (,(J4_114J
  or !il!lW1J,lrn?Y;rd,mil.




                                                                  38
Assistant Secretary of Defense for Networks and
 Information Integration/DOD Chief Information
 Officer Comments




                   Click to add JPEG file




                                  39
40
       Final Report
        Reference




     Revised
     Added
     A.2.d and A.2.e




41
Click to add JPEG file




               42
Assistant Secretary of Defense for Public Affairs
Comments




                    Click to add JPEG file




                                   43
Click to add JPEG file




               44
Secretary of the Air Force Comments




                  Click to add JPEG file




                                 45
Click to add JPEG file




               46
Defense Information Systems Agency (Joint Web Risk
 Assessment Cell) Comments




                   Click to add JPEG file




                                  47
                           Final Report
                            Reference




                         Revised
                         Added
                         Recommendation
                         A.2.e
                         Page 13




Click to add JPEG file




               48
                           Final Report
                            Reference




                         Revised
                         Page 1




                         Revised
                         Page 1




Click to add JPEG file




               49
                           Final Report
                            Reference




                         Revised
                         Page 2




                         Revised
                         Page 10




Click to add JPEG file




               50
                           Final Report
                            Reference




                         Revised
                         Added
                         Recommendation
                         A.2.e
                         Page 13




Click to add JPEG file




               51
Click to add JPEG file




               52
